                Report on Audit of Facilities Utilization of
                 Leased Space, Washington, D.C., and
                      Southern New Jersey Areas

                               September 2004

                     Reference Number: 2004-1C-164




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          September 8, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Facilities Utilization of Leased Space,
                              Washington, D.C., and Southern New Jersey Areas
                              (Audit #20041C0246)


       The Defense Contract Audit Agency (DCAA) evaluated the contractor’s management
       and utilization of leased facilities within the Washington, D.C., and southern New Jersey
       areas. The DCAA performed the audit to evaluate the effectiveness of the contractor’s
       policies and practices in managing its facilities in an efficient and economical manner.
       The audit was conducted from June 2001 through October 2001 and covered contractor
       operations for the fiscal year ended March 31, 2002.
       The DCAA indicated that the contractor’s Civil Group has the opportunity to achieve an
       annual savings of approximately $3.5 million allocable to Government contracts. The
       DCAA evaluation disclosed that there is an opportunity for the contractor to either
       eliminate or consolidate leased space at 16 of its facilities within the Washington, D.C.,
       and southern New Jersey areas. According to the DCAA, the contractor should
       consider either subleasing the excess space or terminating the applicable leases for the
       remainder of the lease terms.
       The DCAA audit report was dated April 2002; however, we did not receive a copy of the
       report until August 2004. Neither the Internal Revenue Service (IRS) nor the Treasury
       Inspector General for Tax Administration (TIGTA) are shown on the DCAA report
       distribution list. We are transmitting the report to you to assist in the management of the
                                           2




contract and to enable the IRS to track any financial accomplishments derived from
negotiations with the contractor based on results from the DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
